CHARNLEY RIAN LLP

Attorneys at Law

CHARNLEY
RIAN LLP

12121 Wilshire Blvd., Suite 600
Los AngeleS; CA 90025
Phone:(310) 321-4300
FAX:(310) 893-0273
www.charnleyrian.com
RICHARD L. CHARNLEY

September 18,2019

Partner

rlc@charnieyrian.com
Direct:(310)893-0284

VIA OVERNIGHT MAIL

NICOLE W. UHLMANN
Of Counsel

Honorable Scott S. Hanis

Clerk ofthe United States Supreme Court

nwu@charnleyrian.com
Direct:(310) 893-0285

1 First Street, N.D.

Washington, D.C. 20543-0001

Re:

Maron Pictures Ltd, v. Sam Eigen, et al
No. 19-259.

Dear Mr. Harris:

This office represents the Respondents, Sam Eigen, Mainsail Entertaimnent,
Inc. and Shoreline Entertainment, Inc., in the above petition No. 19-295.

Respondents respectfully request a fourteen-day extension, or until October
7, 2019, to file their Brief In Opposition to The Petition for Writ of Certiorari filed
by petitioner Maron Pictures.
Currently Respondents’ Brief in Opposition is due on September 27, 2019.

Due to the complexity of the matter’s procedural history and large number
confusing and erroneous references in the subject Petition, Respondents have been
hampered in their desire to file their Brief in Opposition in timely fashion.

IN AFFILIATION WITH ROPERS MAJESKI KOHN BENTLEY PC

Page:2

September 18, 2019

CHARNLEY
RIAN LLP

Hon Scott S. Harris

While Respondents are hopeful that their Brief in Opposition will be filed by

the original “due date,” a fourteen-day extension will ensure that Respondents
position in opposition to Petitioner’s writ request is fully and properly set forth.

ichard I\Chamley

/

4835-2600-6950, v. 1

IN AFFILIATION WITH ROPERS MAJESKI KOHN BENTLEY PC

